NO.

3(ntl)e

Supreme Court ot tfje ®niteij States
Paul V. Cannon
Petitioner,
v.
Bank of America, National Association;
Mortgage Electronic Registration Systems, Inc.;
Bank Of New York Mellon, as Trustee for CWABS
Asset-Backed Certificates Trust 2007-9;
Specialized Loan Servicing, LLC,
Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the First Circuit

PETITION FOR WRIT OF CERTIORARI

T

Paul V. Cannon
Petitioner
256 Winchester Street
Newton, MA 02461
(617) 332-8291

Deceivedjul iem

(i)
QUESTIONS PRESENTED
1. Taking the allegations in Mr. Cannon’s
Complaint as true, did the District Court properly
dismiss the Complaint for failure to state a claim
upon which relief may be granted?
2. If a borrower’s loan has been securitized, does
he no longer have the right to full disclosure
regarding who receives his mortgage payments, in
what amounts, and under what terms?
3. If,
mortgage
foreign to
executed,
enriched?

because of securitization, a borrower’s
payments are used in ways which are
the terms stated in the loan documents he
are those receiving his money unjustly

4. Does a borrower remain obligated to the terms
and conditions stated in the loan documents if the
“lender” and/or its successor(s) breached the
obligations on the lender side?

(ii)
PARTIES TO THE PROCEEDING
Petitioner is Paul V. Cannon, a single man living in
Massachusetts, the borrower of the subject
“mortgage loan” and the Plaintiff / Appellant in the
lower tribunals.
Respondents are Bank of America, National
Association (a debt collecting loan “servicer”);
Mortgage Electronic Registration Systems, Inc.;
(a “straw man” entity created by banks and used to
facilitate the securitization of mortgage loans); Bank
Of New York Mellon, as Trustee for CWABS
Asset-Backed Certificates Trust 2007-9 (the
securitized trustee and trust); and Specialized
Loan Servicing, LLC (successor to Bank of
America as debt-collecting loan “servicer”).

(iii)

TABLE OF CONTENTS
QUESTIONS PRESENTED
PARTIES TO THE PROCEEDING
TABLE OF CONTENTS

1
11

m

TABLE OF AUTHORITIES

v

JURISDICTION

1

OPINIONS BELOW

1

PETITION FOR CERTIORARI

2

STATEMENT OF THE CASE

3

ARGUMENT

10

A.
to Dismiss

10

Pleading Standard on a Motion

B.
Securitization is Based on the
“Pooling” of Mortgage Payments from Many
Borrowers, then Paying “Returns” Derived
from “Slices” of that Pool to Investors who are
Not Contractually Connected to the
Borrowers............................................................

12

Securitized Loans Differ from
Traditional Loans in Every
Aspect.................. .............. ..................................

17

C.

(iv)
REASONS FOR GRANTING THE PETITION.......33
CONCLUSION

36

Appendix
Order from 1st Circuit COA affirming
US District Court dismissal...............

A-l

Order from US District Court dismissing
Complaint........................................... .......

A-3

Transcript of hearing on Motion
to Dismiss....................................

A-5

(V)

TABLE OF AUTHORITIES
Cases
Ashcroft v. Iqbal,
556 U.S. 662, 129 S. Ct. 1937, 1949 (2009)
Bell Atlantic Corp. v. Twombly,
550 U.S. 544, 556 (2007).....
California vs. Countrywide,
CA Sup. Ct. Case No. LC081846

11

11-12

7, 18

Culhane v. Aurora Loan Services of Nebraska,
826 F.Supp.2d 352 (2011).............................. 31-33
Hill v. White,
321 F.3d 1334, 1335 (11th Cir. 2003)

11

Horace vs. LaSalle Bank,
Alabama Circuit Ct. Case No. CV-08-362

24

In re Foreclosure Cases,
Nos. l:07-cv-2282 et al., U.S. Dist. Ct.
Northern Dist. of Ohio.......................... .
In re Schwartz,
366 B.R. 265, 269 (Bankr.D.Mass.2007)
Lee vs. Equifirst et al.,
U.S. Dist. Ct. M-TN, No. 3:10-cv-809

23-25, 34

23

30-31

(Vi)

Stubbs vs. Bank of America,
Case No. l:ll-cv-1367-AT,
U.S. Dist. Ct., North. Dist. of Georgia
U.S. Bank vs. Ibanez,
458 Mass 637 (2011)

11

21-24

Laws, Statutes & Rules
12 U.S.C. § 2605....
15U.S.C. § 1641....
28 U.S.C. § 1254(1)
FRCP 8(e)................
FRCP 12(b)(6)........
M.G.L. 183 § 21.....
M.G.L. 244 § 14.....
M.G.L. 259.............

5
5
1
16
8
23
23

25-26

Other Authorities
Patrick E. Higginbotham,
EDTX and Transfer of Venue,
14 SMU Sci. & Tech. L. Rev. 191, 197 (2011)

32

Robert P. Burns,
The Death of the American Trial (2009)

33

1
JURISDICTION
The First Circuit rendered its decision on February
21, 2019. This Court has jurisdiction under 28
U.S.C. § 1254(1).

OPINIONS BELOW
The United States District Court for the District of
Massachusetts granted the dismissal of Petitioner’s
Complaint on December 12, 2017, in its one-sentence
“Order of Dismissal” electronically signed by the
clerk of the court.
The United States Court of Appeals for the First
Circuit affirmed the District Court’s dismissal in its
one-paragraph “Judgment” issued February 21, 2019.

2

PETITION FOR WRIT OF CERTIORARI
Certiorari review is sought in this case involving a
securitized loan because both trial and appellate
courts failed or refused to apply existing laws that
protect the borrower and guarantee full disclosure of
the transaction, the parties, and most importantly,
how the loan payments are handled. While there are
those who assert that securitization changes nothing
concerning the “loan” or the “obligations” associated
thereto, the fact is that the elements of a securitized
loan do not even remotely resemble those of a
traditional loan.
The end result is the total
replacement of the “mortgage loan” transaction with
a securities transaction that remains hidden from
the borrower at all times.
In addition securitization of mortgage loans
virtually always depends upon the involvement of
federal agencies and federal laws for the issuance of
mortgage-backed securities and the granting of tax
exemptions; therefore, mortgage loans are no longer
solely a “state-specific” legal matter.
The instant case provides a unique opportunity for
the U.S. Supreme Court to weigh in on the problems
a borrower faces when attempting to exercise his
right to full disclosure, but is told, by foreclosure
lawyers and judges, that he “cannot challenge” the
very issues that must be proven to determine the
amount of the “debt,” to whom it is owed, and how
that person or entity purportedly became the
“creditor” with full authority to enforce and foreclose.

3

STATEMENT OF THE CASE
On or about April 30, 2007, Petitioner Paul V.
Cannon (“Petitioner” or “Mr. Cannon”), a single man
living in Massachusetts, executed a Note and
Mortgage which, he was led to believe, truthfully
described a “mortgage loan” agreement. The party
identified in the loan documents as the “lender” was
Countrywide Home Loans, Inc. (“Countrywide”), and
Mortgage Electronic Registration Systems, Inc.
(“MERS”) was listed as the “mortgagee” and as the
“nominee” of the “lender.” Mr. Cannon was never
informed that his loan had been “securitized” from its
origination, or the ramifications thereof.
In or around March of 2008, the Federal Bureau of
Investigation made public its investigation of
Countrywide for possible fraud relating to home
loans and mortgages. In or around July of 2008,
Bank of America (“BANA”) acquired the assets and
liabilities of Countrywide for a reported $4.1 billion.
As part of this acquisition, Bank of America became
the “servicer” of the subject loan, and began to
submit mortgage statements to Mr. Cannon.
On or about September 22, 2011, an “Assignment of
Mortgage” was recorded in Middlesex County,
Massachusetts, in which instrument MERS
purported to “assign” all its rights, title and interest
regarding the Cannon Mortgage “together with the
note” to Bank of New York Mellon FKA The Bank of
New York (“BNYM”) as Trustee for the Benefit of the
Certificateholders of the CWABS Inc., Asset-Backed

4

Certificates, Series 2007-9 (the “securitized trust”).
The document was signed by one Richard Paz,
claiming to be “Assistant Secretary” of MERS. As is
usually the case with such instruments, a copy of this
“Assignment” was not supplied to the borrower, Mr.
Cannon, at the time it was recorded.
In late 2015, Mr. Cannon, still current on his loan
payments, began to suspect that there was something
improper about his Countrywide loan, that it was not
the “plain vanilla mortgage loan” he was led to
believe, and thus employed a forensic loan auditing
firm to find out what really happened, In the
process, Mr. Cannon learned about the method banks
use to convert mortgage loans, or more specifically,
mortgage payments, into mortgage-backed securities,
in the process now widely known (but not well
understood) as “securitization.”
The process of securitizing mortgage loans is what
makes these transactions unrecognizable from a
traditional “mortgage loan transaction” because,
among other things, (a) the funds for the loans are
usually obtained from monies solicited from investors
by the sale of the securities before the loans even
exist (and thus, not from the “lender” identified on
the loan documents); and (b) the mortgage payments
submitted by the many borrowers on those loans are
commingled into a “pool” which has been sliced into
“tranches” from which mortgage-backed securities
offering various “returns” are derived (instead of
being applied toward, and accounted for, the
reduction of “principal” and “interest” by the “lender”

5

or its successor,
documents).

as

represented

in

the

loan

Outraged to discover these facts, Mr. Cannon then
submitted various letters, including a Qualified
Written Request, as authorized under 12 USC § 2605
et seq. (the Real Estate Settlement Procedures Act or
“RESPA”), and in accordance with 15 U.S.C. § 1641
et seq. (the Truth in Lending Act or “TILA”), first to
Bank of America, and then to Specialized Loan
Servicing (“SLS”), who succeeded BANA as the debt­
collecting loan “servicer” in or around 2016. NEVER
ONCE in any response from either debt collector was
Mr. Cannon informed who actually received his
mortgage payments, and the terms under which they
were distributed. Instead, both BANA and SLS
repeatedly alleged that the loan documents were
“valid and binding” upon Mr. Cannon, and expressed
their intent to continue to enforce them.
Now aware that mere correspondence would not
provide an acceptable solution, Mr. Cannon initiated
a civil lawsuit in Federal District Court in July of
2016, seeking relief for, among other things, the
improper use of his mortgage payments and the
various inappropriate acts done, and false
statements made, associated therewith. This first
lawsuit included several separate causes of action,
including one for “Wrongful Foreclosure” which Mr.
Cannon went into great detail to explain was brought
to prevent a foreclosure “sale” which had not yet
happened, but also in lieu of a cause titled “Wrongful
Attempted Foreclosure” or “Wrongful Threatened

6
Foreclosure” which Mr. Cannon believed did not
exist. Mr. Cannon also raised additional claims
under certain Federal laws relating to truth in the
lending process and the collection of mortgage debt.
Mr. Cannon invoked the jurisdiction of the federal
court on the basis of his federal claims, and on
diversity of citizenship.
Apparently, the cause of Wrongful Foreclosure before
the “sale” had taken place was sufficient for the
District Court to grant the dismissal of the entire
first Complaint, without prejudice, suggesting that it
could be re-filed without including that claim.
In March of 2017, Mr. Cannon filed the Complaint on
appeal in this matter. Mr. Cannon removed the
cause of action for “Wrongful Foreclosure” but
retained claims for violations of the Fair Debt
Collection Practices Act; Fair Credit Reporting Act;
Misrepresentation,
Unjust
Enrichment;
Civil
Conspiracy; Cancellation of Instruments; and added
Slander of Title. Mr. Cannon thus invoked the
jurisdiction of the Federal District Court by bringing
the FDCPA and FCRA claims, as well as citing
“diversity of citizenship” as the Defendants were
citizens of different states.
Attached to this Complaint were many exhibits,
including the full forensic audit, which shows, by way
of screenshots from the Bloomberg / “ABSNet”
database, the “loan level” details including the
various “slices” of the loan pool where Mr. Cannon’s
loan and payments are found.

7
Mr. Cannon alleged that the “securitization” of his
loan is not the same as a “true sale” of the loan from
one legitimate creditor to the next, but instead, is the
complete and total replacement of the transaction
described in the loan documents with an entirely
different transaction, with different parties, rights,
obligations, and payment streams.
Mr. Cannon
alleged that the replacement of the “mortgage loan”
transaction with the disguised securities transaction
occurred instantly at the origination of his loan,
citing as the bases for this allegation that (a) nearly
all of Countrywide’s loans were securitized; (b)
securitization terms require the securitized trusts to
obtain “ownership” of the loans within a very short
time after origination; and that (c) his mortgage
payments were always, from the very beginning,
collected on behalf of the undisclosed “investors” who
purchased the securities and who were paid “returns”
derived from the “pool” of loan payments. In a
subsequent Opposition to a Motion to Dismiss, Mr.
Cannon cited the California Attorney General in
California v. Countrywide, CA Superior Ct. No.
LC081846 (2008), who confirmed that most of
Countrywide’s loans were sold “forward” — in other
words, before the loans actually existed!
Mr. Cannon further alleged that the. routine
misapplication of his payments was not only
improper, but because of this flaw, (a) he could not be
“in default” to any of the recipients of his money; and
(b) he could never have legally reduced the amounts
of “principal” and “interest” by a single dollar even if
he made “timely” and “full” payments for the entire

8
thirty-year term of the loan!
Nevertheless, his opponents, through their attorneys,
never actually “answered” the Complaint, but, as if
routine, filed a “Motion to Dismiss” under F.R.C.P.
12(b)(6) “failure to state a claim upon which relief
may be granted,” supported by various legal
arguments, always alleging that there was “nothing
wrong” with what was done; that Mr. Cannon was
still “fully obligated” to comply with the “mortgage
loan” contract; that their enforcement of the “debt”
was proper based on “possession” of the Note which
had been endorsed “in blank;” and that Mr. Cannon
had “no standing” to challenge an “assignment” of his
Mortgage, or any of the elements of securitization,
because he was not a party to those agreements.
These arguments were “supported” by references to
an “accounting” that purportedly showed amounts of
“principal” and “interest” which were paid or still due
and owing. However, neither the “accounting” nor
any “declarations” filed by the attorneys for BANA,
SLS, MERS, and BNYM ever disclosed how Mr.
Cannon’s payments were distributed, to whom, and
in what amounts - even though this was a central
issue in dispute - while at all times relevant, BANA,
SLS, MERS, and BNYM fully acknowledged that it
was for the “benefit” of a securitized trust, or the
intended
beneficiaries
of that
trust
(the
“certificateholders”), that the mortgage payments
were collected.
Without scheduling an evidentiary hearing or
allowing any discovery to commence, the District

9
Court again dismissed Mr. Cannon’s Complaint, this
time with prejudice. See “Order of Dismissal”
Appendix p. A-3. At the hearing, Judge Young never
reached the merits of the case, or the issues in
dispute, but indicated that he had already made up
his mind, telling Mr. Cannon “you lose.”
See
Transcript of hearing, p. A-5.
Mr. Cannon appealed to the First Circuit Court of
Appeals, but the appellate court affirmed, finding
Mr.
Cannon’s claims “unpersuasive.”
See
“Judgment” p. A-l.
Mr. Cannon petitions for certiorari review by the
United States Supreme Court because, as he has now
experienced, both the trial court, and the court of
appeal, not only made their “rulings” without
determining the facts, they also took steps to ensure
that the facts would never be discovered, and thus,
never entered into the court record. It therefore
appears certain that in cases involving securitized
loans, the very same courts which do an exemplary
job of determining what happened in other matters,
somehow “overlook” applicable rules and law, while
expressing no interest in finding out what really
happened. This is contrary to the purpose of the law
as well as the rules of civil procedure. The active
denial of justice to borrowers who dare to expose the
fatal defects inherent in the securitization process
constitutes a dangerous message to all Americans
that the private policies of the “too big to fail” banks
may have permanently replaced our system of law.

10
ARGUMENT
A.

Pleading standard on a motion to dismiss

Petitioner’s Complaint raised serious issues of
genuine controversy. The Complaint was neither
“frivolous” nor “vexatious” litigation, which are, or
should be, essentially the only kinds of cases that the
pleading standards are intended to “weed out” of the
judicial system.
The controlling case law dealing with pleading
standards begins with the general agreement that
the allegations of the Complaint are to be taken as
true, and in the light most favorable to the Plaintiff.
There does not seem to be any case which has stated
that the allegations of the Motion to Dismiss are to
be taken as true.
In addition, Mr. Cannon verified his Complaint with
a sworn statement that the allegations were true, or
that he believed them to be true, and was therefore a
competent witness with personal knowledge of the
events within his control. The Defendants moving to
dismiss the Complaint provided no sworn statements
or witnesses, and therefore, their pleading contained
nothing but hearsay statements by attorneys persons who had no personal knowledge of any of the
facts.
Mr. Cannon was under the impression that an
unrebutted Affidavit stood as truth. In the absence
of any contradicting sworn statements by any

11
qualified witnesses, Mr. Cannon’s sworn and verified
allegations should have at least guaranteed him the
right to due process until it was proven - not just
alleged — that his Complaint could not possibly be
true under any set of “facts.”
Consider the following from Stubbs vs. Bank of
America, Case No. l:ll-cv-1367-AT, U.S. Dist. Ct.,
North. Dist. of Georgia:
“In determining whether a complaint
states a claim upon which relief can be
granted, courts accept the factual
allegations in the complaint as true and
construe them in the light most
favorable to the plaintiff. Hill v. White,
321 F.3d 1334, 1335 (11th Cir. 2003). To
survive a motion to dismiss, a complaint
must allege facts that, if true, “state a
claim to relief that is plausible on its
face.” Ashcroft v. Iqbal, 556 U.S. 662,
129 S. Ct. 1937, 1949 (2009) (quotation
marks omitted). A claim is plausible
where the plaintiff alleges factual
content that ‘allows the court to draw
the reasonable inference that the
defendant is liable for the misconduct
alleged.’ Id. The plausibility standard
requires that a plaintiff allege sufficient
facts ‘to raise a reasonable expectation
that discovery will reveal evidence’ that
supports the plaintiffs claim. Bell
Atlantic Corp. v. Twombly, 550 U.S.

12
544, 556 (2007).”
Even the oft-cited Twombly decision favors the
Plaintiffs claims, as it refers to discovery that would
prove elements of the case,
Discovery never
commenced by virtue of the District Court’s
premature and erroneous dismissal, but if it had
commenced, there was more than a reasonable
chance that the facts and information discovered
would have proven, at a minimum, that Mr.
Cannon’s mortgage payments were handled in a
manner far different from the representations made
in the loan documents. This one element would then
lead to the related conclusions derived therefrom. As
the saying goes, “just follow the money.”
Clearly, Mr. Cannon’s Complaint made several wellfounded allegations which, if taken as true, stated
several claims upon which relief could be granted.
B.

Securitization is Based on the “Pooling”
of Mortgage Payments from Many
Borrowers,
then
Paying
“Returns”
Derived from “Slices” of that Pool to
Investors who are Not Contractually
Connected to the Borrowers

The fact that a borrower’s monthly mortgage
payments are commingled with many other
borrowers’ payments, then paid out in ways which
are foreign to the terms and conditions of the
“mortgage loan” instruments, has far-reaching
consequences. This single issue may be the reason

13
the Courts seem so reluctant to allow any discovery,
or to even express the need to determine the truth of
the controversy so that justice may be done.
However, Mr. Cannon believes that he, just as any
borrower, has the right to know exactly what
happened with his money after he submitted his
mortgage payments.
The arguments against this right of the borrower
typically stem from allegations that the borrower “is
not a party” to the third-party “contracts” such as the
securitized trust agreements. However, this type of
argument not only destroys the purpose of all fair
lending laws, both state and federal, but
additionally, constitutes an attempt to conceal
illegal behavior by claiming that the existence of a
third-party contract somehow “insulates” all the acts
and the parties from any challenges by the borrower
- never mind that these are the same parties who
still collected, received and/or benefitted from the
borrower’s payments. But laws meant to prevent
fraud should not be manipulated so as to facilitate
fraud.
Mr. Cannon went into great detail to explain why the
routine misapplication of his mortgage payments is
improper; invalidates the “mortgage loan” “contract
and unjustly enriches those who have received some
or all of his payments. Mr. Cannon further explained
why the failure to disclose the full truth about how
his money was handled when he made mortgage
payments - as well as the false information and

14
“statements” submitted to conceal the truth
constituted misrepresentation.
Mr. Cannon fully expected the attorneys for the
financial Defendants to put forth specious legal
arguments, because, after all, if the truth were told,
the attorneys, and their clients, are probably in
trouble. However, Mr. Cannon did not expect the
judges who oversaw his case to so quickly want to
dispose of it that they actively resisted allowing the
truth or the facts to become part of the record.
The only Judge Young could have properly dismissed
Mr. Cannon’s Complaint is to have made a
determination that none of his claims had any merit
at all. The Transcript record of the dialog from
Judge Young at the December 12, 2017 hearing on
the Motion to Dismiss is literally embarrassing, or it
should be, for anyone with even a minor
understanding of the purpose of the courts.
Appendix, A-5.
Clearly, Judge Young was not willing - and probably
not able - to explain why the commingling of Mr.
Cannon’s mortgage payments in a “pool” then having
“returns” paid out to undisclosed investors from
“slices” of the “pool” was no different than if a bank
which had loaned him the money received the
payments and accounted for them as “repayment of
principal” and “interest income” on its books and
records for tax purposes. Judge Young’s simple
conclusion was “you lose.”

15
The Court is not a casino. The Plaintiff does not
make a bet and wait on a roll of the dice to see if he
“wins” or “loses.” It is supposed to be a legal process
of finding the truth, so that justice may be done.
Mr. Cannon would ask, how can a court make a
ruling on a dispute without knowing the facts itself?
And yet, every element of the subject “obligation”
hinges on a true and correct accounting for the loan
payments. Mortgage “statements” rely on paid and
unpaid amounts of “principal” and “interest.” The
enforcement by way of foreclosure may only proceed
after a “default” occurs. And a “default” may only
take place if the “lender” or its successor has
complied with the obligations on the lender side of
the loan “contract.”
But what if “default” under the loan documents is
impossible? What if, as Mr. Cannon asserts, there is
no legitimate “creditor” who can legally cancel the
Note, record a “satisfaction of mortgage” and convey
clear, unencumbered title to the property if he were
to pay off the “debt” entirely?
Mr. Cannon contends that the banks have knowingly
created a defective process with this “securitization,”
for the many ways that it benefits them. In many
ways, the defects constitute totally illegal acts, such
as the replacement of the “mortgage loan”
transaction with a disguised securities transaction;
or the representations made to U.S. government
agencies about the manner in which loans will be
“acquired” by the securitized trusts, but then taking

16
a totally contrary position for the purpose of
foreclosure.
Mr. Cannon asserts, just as F.R.C.P. 8(e) states, that
his pleading should have been construed “so as to do
justice.” Our courts are not charged with a duty to
prevent the truth from becoming public, regardless of
claims that banks are “too big to fail.” In any
instance, a borrower who has the right to know what
happened to his money, certainly deserves better
than to be told “you lose” by a judge who has taken
an oath to “faithfully and impartially” discharge his
duty to administer justice “without respect to
persons.”
Therefore, under the pleading standards expressed in
section A above, if the allegations in Mr. Cannon’s
Complaint were taken as true, and his mortgage
payments were, indeed, applied toward a securities
transaction under different terms and conditions
than he agreed to, instead of exactly as required in
the loan documents, wouldn’t this fact lead any
reasonable person to conclude that the person(s) or
entity (ies) who received that money was/were
unjustly enriched by it? Wouldn’t a reasonable
person conclude that the false statements made
concerning the application of payments toward
“principal” and “interest” or amounts thereof still due
and owing constitute misrepresentations?

17

C.

Securitized Loans Differ from Traditional
Loans in Every Aspect

Most people still do not fully understand what the
process of “securitizing” mortgage loans entails.
They are told that mortgage loans are now “bundled”
together and sold on Wall Street like stocks and
bonds.
In truth, securitization involves a
complicated procedure which requires lengthy
disclosures and an approval process by government
regulatory agencies concerning the sales of such
investment vehicles and the “tax exempt” status they
seek.
The method most commonly utilized to “securitize”
mortgage loans necessitates that the facts relating to
(a) the funding of the loan, and (b) the application of
the borrower’s payments, among other things, be
concealed from, or misrepresented to, the borrower
for reasons that become apparent when “securitized”
loans are compared with “traditional” loans:
► In a “traditional” mortgage loan, the funds are
provided by the lender. Thus, the borrower owes the
money to the lender. But in a “securitized” loan, the
party named as the “lender” on the loan documents
is, more often than not, merely a “third party
originator” who is paid a fee to obtain borrowers’
signatures on loan documents. The funds for the
loan come from monies solicited from secondarymarket investors who purchased mortgage-backed
securities before the loans ever existed. The money
for the loan is eventually wired to the local escrow

18
agent from an investment bank (sometimes referred
to as a “warehouse lender”) with a separate set of
closing instructions that are not disclosed to the
borrower. In this instance, the borrower never really
“owes” anything to the “lender” named in the loan
documents. It was on this basis that California
Attorney General Edmund G. Brown, in California v.
Countrywide, confirmed that securitized loans are
sold “forward,” or, in other words, before the
borrower even signs the loan documents.
► In a “traditional” mortgage loan, the loan
transaction is completely and truthfully disclosed. In
a “securitized” loan, the transaction described in the
loan documents never takes place, and instead, a
disguised securities transaction, which is not
disclosed to the borrower, replaces it.
► In a “traditional” mortgage loan, the parties to the
transaction are properly identified. In a “securitized”
loan, the parties to the actual transaction are not
disclosed in the loan documents.
► In a “traditional” mortgage loan, the rights &
obligations of the parties are accurately described.
In a “securitized” loan, the rights & obligations of the
parties are falsely stated in the loan documents.
► In a “traditional” mortgage loan, the lender has a
legal “lien” on the property “secured” by the loan.
This is evidenced by the lender being named the
“mortgagee” (or “beneficiary”) in the property records
where the mortgage (or deed of trust) is recorded. In

19
a “securitized” loan, the third party originator may
be listed as “lienholder” until foreclosure commences
(often by another entity), at which time, foreclosure
documents such as an “assignment” of the mortgage
are fabricated to create the appearance that the loan
has been “transferred” to the foreclosing entity.
► In a “traditional” mortgage loan, the borrower
deals directly with the lender. In a “securitized”
loan, the Borrower deals only with a debt collector
(called a loan “servicer”), and in fact, is most often
denied direct contact with the person or entity that
provided the funds.
► In a “traditional” mortgage loan, the borrower’s
payments are made to, and received by, the lender.
In a “securitized” loan, the borrower’s payments are
paid to the debt-collecting loan “servicer” for the
“benefit” of the ultimate recipients of the funds:
undisclosed Wall Street investors who have no
contractual connection to the borrower.
► IN WHAT IS POSSIBLY THE MOST CRITICAL
PROBLEM IN THE SECURITIZATION PROCESS:
In a “traditional” mortgage loan, the Lender applies
mortgage payments toward “principal” and “interest”
by accounting for the amounts of “repayment of
principal” (not taxed) and “interest income” (fully
taxable) as “receivables” on its books and records for
tax purposes, thus reducing those amounts from each
payment submitted by the borrower. In this way, the
borrower may pay off his loan to a legitimate
“creditor” who, upon payment in full, is legally

20

authorized to (a) cancel the note and deliver it to the
borrower; (b) record a “satisfaction of mortgage” in
the property records; and (c) release its “lien” and
convey clear, unencumbered title of the property to
the borrower - which are the only reasons the
borrower applies for the loan in the first place. In a
“securitized” loan, the borrower’s payments are
commingled in a “pool” of payments from many other
borrowers, and then paid out to investors as
“returns” under terms & conditions which are totally
different than those stated in the loan documents.
Under this scenario, NO ONE accounts for the
amounts of “repayment of principal” and “interest
income” as receivables on his/its books and records
for tax purposes. What this means is the borrower
does not, and cannot, reduce the amounts of
“principal” and “interest” from any amount of
payments submitted, which naturally means the loan
cannot ever be paid off in this manner. It also means
that the borrower is making payments to parties who
(a) cannot “cancel” the note; (b) have no authority to
record the “satisfaction of mortgage” in the property
records; and (c) cannot legally convey title of the
property to the borrower, because they have no
interest in the property to convey.
► In a “traditional” mortgage loan, if the borrower
fails to make payments, the lender suffers “damage”
and, if a specifically-stated number of payments are
missed, the lender may declare that the loan is in
“default.” In a “securitized” loan, if the borrower fails
to make payments, the secondary-market investors
do not suffer “damage” in the same way a lending

21
bank does (possibly suffering no damage at all
because of various “guarantees” included with the
securities), and therefore, these investors have no
legal right to claim a “default” exists.
► In a “traditional” mortgage loan, the lender may
legally foreclose if the loan is not repaid. In a
“securitized” loan, the recipients of the borrower’s
money (secondary-market investors) have no legal
right to foreclose; for this reason, foreclosure of
“securitized” loans is routinely pursued by
unauthorized parties represented by “foreclosure
mill” law firms who have made a science of
misrepresenting facts, concealing truth, fabricating
evidence, and twisting both the meaning and intent
of the law as “expedient” measures in order to
facilitate the unlawful taking of property from the
homeowner.
Massachusetts courts have made rulings based on
some of the defects in the securitization process, such
as the failure to comply with the “A-B-C-D” chain of
“true sale” transfers required by the trust
agreements; and the “closing date” requirement
which mandates that all loans be properly
transferred through the above chain before the start
of business, i.e., before the first “returns” are paid
out, usually within 30-60 days of issuance of the
securities. For example, in U.S. Bank v. Ibanez, 458
Mass 637 (2011), the Massachusetts Supreme Court
examined two non-judicial foreclosures of securitized
loans by banks who subsequently filed judicial
actions for clear title. In each instance, the banks

22

were denied title because they could not prove legal
authority for the foreclosure they had already
conducted. As the loans were securitized, the banks
were required to provide some showing of how loans
are “transferred” into the trusts; thus, “Pooling and
Servicing Agreements” and/or “Private Placement
Memorandums” were examined by the Court, and
the required chain of transfers was clearly indicated
as an essential, express condition for the operation of
the trust.
In reviewing the Ibanez foreclosure, the Court stated:
“According to the PPM, ‘[e]ach transfer
of a Mortgage Loan from the Seller
[Lehman Brothers Holdings Inc.] to the
Depositor [Structured Asset Securities
Corporation] and from the Depositor to
the Trustee [U.S. Bank] will be intended
to be a sale of that Mortgage Loan and
will be reflected as such in the Sale and
Assignment Agreement and the Trust
Agreement, respectively.’ The PPM also
specifies that ‘[e]ach Mortgage Loan will
be identified in a schedule appearing as
an exhibit to the Trust Agreement.’
However, U.S. Bank did not provide the
judge with any mortgage schedule
identifying the Ibanez loan as among
the mortgages that were assigned in the
trust agreement.”

23
It should also be noted that there was no series of
“assignments” of the Ibanez mortgage through the
chain of Originator-Seller-Depositor-Trust.
The other foreclosure, by Wells Fargo, was examined
in the same way, and, as in the Ibanez matter,
authority could not be proven through the
securitization requirements. Concluding that none of
the foreclosures were valid, the Ibanez Court
explained its reasoning, and cited another
Massachusetts case on point:
“Where a plaintiff files a complaint asking for a
declaration of clear title after a mortgage foreclosure,
a judge is entitled to ask for proof that the
foreclosing entity was the mortgage holder at the
time of the notice of sale and foreclosure, or was one
of the parties authorized to foreclose under G.L. c.
183, § 21, and G.L. c. 244, § 14. A plaintiff that
cannot make this modest showing cannot justly
proclaim that it was unfairly denied a declaration of
clear title. See In re Schwartz, 366 B.R. 265, 269
(Bankr. D. Mass. 2007) at 266 (‘When HomEq
[Servicing Corporation] was required to prove its
authority to conduct the sale, and despite having
been given ample opportunity to do so, what it
produced instead was a jumble of documents and
conclusory statements, some of which are not
supported by the documents and indeed even
contradicted by them’).
Interestingly, Massachusetts Attorney General
Martha Coakley filed an “Amicus” brief in the Ibanez

24

case, in favor of denying title to the banks, as well as
ordering them to pay all the costs related to the
frivolous actions, on the basis that both foreclosures
were void under the law because, among other
reasons, they “lacked valid assignments.” Ms.
Coakley stated in her brief:
“Having profited greatly from practices
regarding
the
assignment
and
securitization not grounded in the law,
it is reasonable for them to bear the cost
of failing to ensure that such practices
conformed to Massachusetts law.”
Ms. Coakley’s Amicus brief in Ibanez was filed less
than one year before she initiated a lawsuit on behalf
of the Commonwealth of Massachusetts against
Bank of America (and the other “too big” banks) for
unfair and deceptive practices directly related to the
fraudulent, unauthorized foreclosures resulting from
the defective securitization process.
In Horace vs. LaSalle Bank, Alabama Circuit Court
Case No. CV-08-362, Judge Albert L. Johnson ruled
that the subject trust, which in that case did not
receive physical possession of the loan assets by the
Agreement’s cut-off date, could not foreclose, nor
could it “transfer” the authority to foreclose to any
other entity or person as it lacked this authority
itself. The court stated:
“The court is surprised to the point of
astonishment that the defendant trust

25

(LaSalle Bank National Association) did
not comply with the terms of its own
Pooling and Servicing Agreement and
further did not comply with New York
law in attempting to obtain assignment
of plaintiff Horace’s note and mortgage.
Horace is a third-party beneficiary of
the Pooling and Servicing Agreement
created by the defendant trust. Indeed
without such Pooling and Servicing
Agreements plaintiff Horace and other
mortgagors similarly situated would
never have been able to obtain
financing.” (p. 1)
“Consequently... [the] defendant trust
(LaSalle Bank National Association) is
permanently enjoined from foreclosing
on the property....” (p. 2)
As one continues to dig deeper, the fraud becomes
even more evident. If, as Mr. Cannon suggests, the
loan documents themselves do not describe the
actual transaction which occurred, or the parties to
the transaction, or the rights and obligations of the
parties, the loan documents, taken together, do not
constitute a valid “contract” under Massachusetts
contract law.
Massachusetts has, as do most states, statutory
requirements that determine whether a contract is
valid, void, voidable, or unenforceable. Under the
Massachusetts Statute of Frauds, M.G.L. c. 259,

26
contracts must, at a minimum, (a) be in writing; (b)
correctly identify the parties; (c) contain an accurate
description of property; (d) be based on lawful
consideration; and (e) must be signed by the party to
be charged. The Statute contains several bases for
rescission, including misrepresentation, fraud, and
undue influence or duress; and conditions for
termination
that
include
“impossibility
of
performance.”
The banks attempting to collect and enforce the
“obligation” against Mr. Cannon continue the
common practice of repeatedly pushing the
enforcement of the loan “contract” by stating to the
borrower that the loan documents remain “fully
enforceable” when, in fact, they were likely never
enforceable under Massachusetts contract law:
► There was never any “lawful consideration” as
stated in the loan documents (even though money
was made available), because the party identified as
the “lender” did not lend the money, and was
therefore never owed the “debt.”
► The transaction itself
the securitization
transaction, which is the ONLY transaction that ever
happened - was never fully disclosed.
► Obviously, if the transaction was misrepresented,
then neither were the parties to the transaction
properly identified, as the law requires.
►

The requirement that the “lender”

(or its

27

“successor”) “apply” the borrower’s payments toward
the reduction of “principal” and “interest” (which
only a legitimate creditor can do) never took place,
because the borrower’s payments were used to pay
undisclosed investors under the securitization terms,
without the borrower’s knowledge or permission.
► The fact that the borrower can never pay off, or
even pay down, any amount of the “obligation” in the
manner stated in the loan documents constitutes
“impossibility of performance” and grounds for
termination.
► Likewise, the stated “lender” in the loan
documents cannot ever “apply” the borrower’s
payments toward “principal” and “interest” as
required, because that “lender” is not owed the debt,
and thus, will not, and in fact cannot, tender
mortgage payments as “receivables” on its books and
records for tax purposes. This also constitutes
“impossibility of performance” and is grounds for
termination, as well as fraud.
As if all of this weren’t enough already, there is one
more element of securitization which seems to have
been overlooked by litigants and courts alike probably because it is hidden in the hardest place to
see it: in plain view — but which should be enough to
stop this massive fraud in its tracks, because the
result is not only waves of wrongful foreclosures, but
massive fraud upon the Federal Government in
virtually every instance of securitization of mortgage
loans.

28
The concept is “pass-through.” Like a “pass-through”
corporate entity, such as a limited liability company.
Sometimes, the phrase “pass-through” actually
appears in the name of the securitized trusts, or in
the title of the “certificates” issued by the trusts, or
both. Sometimes it does not appear, but is still a
necessary element of securitization.
The reason for this, in short, is the tax exemption
granted the trust in this status. A securitized trust
primarily operates as a Real Estate Mortgage
Investment Conduit, or “REMIC,” and as such, it is
not the trust, but the holders of the certificates (the
“residual interests”), who are liable for taxes on the
“income” distributed from the pooled assets.
What this means should give anyone pause. As a
pass-through entity, the securitized trust
cannot legally account for the mortgage
payments as “interest income” and “repayment
of principal,” and therefore, cannot legally own
the mortgage loans it lists as the “pooled”
assets in the securities offerings.
Yet, many - possibly millions - of foreclosures have
been conducted, and completed, on behalf of these
“pass-through” trusts which are, by their own
admissions in documents filed with U.S. government
agencies, legally prohibited from owning the loans
they are supposedly foreclosing!!
Federal District Judge Christopher A. Boyko in In re

29
Foreclosure Cases, Nos. l:07-cv-2282 et al., in the
United States District Court, Northern District of
Ohio, Eastern Division, addressed this situation in
2007 when he stated:
“Neither the fluidity of the secondary
mortgage market, nor monetary or
economic considerations of the parties,
nor the convenience of the litigants
supersede [the court’s] obligations.” (pp.
4-5)
“...unchallenged
by
underfinanced
opponents, the institutions worry less
about jurisdictional requirements and
more about maximizing returns. Unlike
the focus of financial institutions, the
federal courts must act as gatekeepers,
assuring that only those who meet
diversity and standing requirements are
allowed to pass through.” (p. 5)
“Counsel for the institutions are not
without legal argument to support their
position, but their arguments fall
woefully short of justifying their
premature filings, and utterly fail to
satisfy their standing and jurisdictional
burdens. The institutions seem to adopt
the attitude that since they have been
doing this for so long, unchallenged, this
practice equates with legal compliance.
Finally put to the test, their weak legal

30

arguments compel the Court to stop
them at the gate.” (pp. 5-6)
“The ‘real party in interest’ rule, to
which the Plaintiff-Lenders continually
refer in their responses or motions, is
clearly comprehended by the Court and
is not intended to assist banks in
avoiding traditional ... requirements.”
(p. 5)
Therefore, discovery should have been required as a
necessary element in the instant matter, to prove the
facts. In Lee vs. Equifirst et al., Case No. 3:10-cv809, Judge Aleta A. Trauger in the United States
District Court for the Middle District of Tennessee,
Nashville Division, stated:
“...although the plaintiff does not argue
that she needs time for additional
discovery, the court believes that the
defendant’s Motion for Summary
Judgment is premature. The parties
have not had a full and fair opportunity
to engage in discovery. In fact, a
discovery deadline has not even been set
in this case, for various reasons
apparent in the case record. Given the
apparent lack of transparency regarding
which defendant owned the plaintiffs
loans at any given time, the court
believes that it would be inappropriate
to resolve the instant factual issue

31
before the close of discovery.” (p. 9)
“The court finds that, at least at this
stage in the litigation, the plaintiffs
documents are sufficient to create a
genuine issue for trial regarding when
EquiFirst sold the loans. Significantly,
the defendant’s sole piece of evidence is
the self-serving declaration of its own
employee....” (p. 8)
With all the evidence provided by Mr. Cannon, was
there not even one single issue of genuine
controversy? How did District Court Judge William
G. Young determine that NONE of Mr. Cannon’s
claims had merit, when he could not have made that
determination for himself? And, could this be the
same Judge William G. Young who, just a few short
years ago, wrote the following in Culhane v. Aurora
Loan Services of Nebraska, 826 F.Supp.2d 352
(2011)?
“...when I joined the district court bench
over a quarter century ago, ... even then
a "sea-change" was taking place among
federal trial judges. Many no longer
perceived their primary tasks as
deciding motions after oral argument
and presiding as neutral referees at
trials. They were encouraged to consider
themselves managers whose job was to
dispose of cases expeditiously. From
that perspective trials came to seem

32

wasteful.
Today, the conception that the judge is
primarily an actual law teacher during
court proceedings is held only by a
shrinking minority. One judge at least
has the courage to tell it like it is:
[There] is a change in the very culture
of the United States District Court. It is
no longer a trial court in many parts of
the country. I have said it and I mean it,
but it functions more like a state
highway department. They will not try
cases. More fundamentally, they will
not set the cases for trial because the
parties will mediate this case, and if I
do not set it for trial, eventually it will
settle. And settlement is a better
reconciliation, because this is about
relationships.
No it is not! It is about property, it is
about money, and it is about serious
disputes that are vital to the economy
and need to be resolved fairly and
straight up.
Patrick E. Higginbotham, EDTX and
Transfer of Venue, 14 SMU Sci. & Tech.
L. Rev. 191, 197 (2011).
Out of focus, we in the district courts

33

are managing ourselves into oblivion.
The larger consequences of the loss of
focus on our core judicial responsibility
and its tragic consequences for
American democracy are detailed in
Robert P. Burns, The Death of the
American Trial (2009).
Thus, the dismissal of Mr. Cannon’s Complaint is
another travesty that had nothing to do with serving
the interests of justice. If the courts truly have
become nothing more than traffic cops, the American
People should at least be informed of this transition,
so that they could react accordingly.
REASONS FOR GRANTING THE PETITION
Mr. Cannon’s loan was securitized in the usual way —
which means the loan documents are false; the
mortgage payments he submitted were routinely
misapplied; and the banks and their attorneys
continue to lie about it all, with only one goal in
mind: to take his house from him - illegally.
Mr. Cannon’s Complaint is an articulate, wellfounded pleading that is far from “frivolous.” It even
contained a full forensic audit, supported with an
Affidavit by the auditor; so, Mr. Cannon essentially
had an “expert witness” with him in support of his
claims.
And finally, Mr. Cannon verified his
Complaint with a sworn statement before a notary.
His sworn statements were never rebutted by any
witness with personal knowledge presented by the

34

Defendants.
However, Mr. Cannon, as the borrower, obviously
does not have access to the financial books and
records of the entities who handled his payments. If
the Court was unsure that Mr. Cannon’s claims of
misapplied payments were, indeed, true, then it
could have allowed discovery to commence, or
scheduled an evidentiary hearing, or both.
Instead, the District Court was apparently swayed
by members of an entire industry in which
unauthorized foreclosures of securitized loans are
prosecuted by highly-paid law firms - in other words,
attorneys who know exactly what laws they are
breaking, but do it anyway. Papers with outright
false statements were filed in the instant case which
contain the signatures of attorneys who have taken
oaths promising not to do what they are guilty of
doing on a daily basis. Obviously, these attorneys do
not fear any repercussions from the many violations
of the rules of professional conduct...at least, not at
the moment.
In any event, Judge Young should have explained
why Mr. Cannon no longer had a right to full
disclosure of the financial details concerning his loan
payments — a right he was guaranteed at the time of
origination, by both state and federal law. Judge
Young could have informed Mr. Cannon why the
strangers who received his payments were not
“unjustly enriched” instead of insulting him with the
statement, “you lose.”

35

Alas, just like the Savings & Loan scandal of the
1980’s, where over 400 corporate executives went to
prison; and just like the huge class-action lawsuit
against big tobacco, the truth must, and will,
eventually come out into the light and expose this
securitization scam as the biggest fraud ever
perpetrated upon the People of the United Sates in
our entire history. It has certainly resulted in the
largest transfer of wealth and property. As Thomas
Jefferson once said:
“If the American people ever allow
private banks to control the issue of
their currency, first by inflation, then by
deflation, the banks and corporations
that will grow up around them will
deprive the people of all property until
their children wake up homeless on the
continent their Fathers conquered.”
It seems that securitization of mortgage loans could
be the method by which the banks are attempting to
make America homeless, fulfilling Jefferson’s words.
Therefore, the Supreme Court should take this
opportunity to help create uniformity in foreclosures
nationwide, restore order to our judicial system, and
send an appropriate message to the attorneys
helping the criminal banking enterprise that the
private policies of banks will never permanently
replace the American system of law and justice.

36
CONCLUSION
The Court should grant the Petition.

Regretfully Submitted,

PamVTCannon”
~f
256 Winchester Street
Newton, Massachusetts 02461
(617) 332-8291
Specializedrepair8@gmail.com
Petitioner

July 12, 2019.

